HHS/OIG, Audit - The President's Council on Integrity and Efficiency Debt Collection Initiative at the Centers for Medicare and Medicaid Services Region V Regional Office for the Period Ending September 30, 2000 (A-05-01-00033)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"The President's Council on Integrity and Efficiency Debt Collection
Initiative at the Centers for Medicare and Medicaid Services, Region V Regional
Office for the Period Ending September 30, 2000" (A-05-01-00033)
March 14, 2002
Complete
Text of Report is available in PDF format (338 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine the amount and collectibility
of non-tax delinquent debt that was owed to Medicare and reported by the Centers
for Medicare and Medicaid Services (CMS), Region V Regional Office (RO), as
of September 30, 2000.  Although we believe that the RO has reported and
properly accounted for their outstanding accounts receivable and delinquent
balances without any material misstatements, our review did disclose a net overstatement
of $410,917 in the non-Medicare secondary payer (MSP) principle balance reported
by the RO, attributable to problems detected in our reconciliation of the RO
financial reports and the review of the sampled items. The discrepancies included
improper location codes on the Provider Overpayment Report (POR) and the Physician
Supplier Overpayment Report (PSOR), inaccuracies between account balances on
the R751 and the POR or PSOR, duplicate amounts, and unrecognized collections.
We also found that 44 percent of the sampled non-MSP receivables had inaccuracies
in their outstanding principal balances and noted problems with the due diligence
exercised by the RO in its collection efforts for 26 percent of the 34 receivables
reviewed.